               Office of
               INSPECTOR GENERAL
               U.S. Department of the Interior

      INSPECTION REPORT




         Museum Collections:
   Preservation and Protection Issues
   with Collections Maintained by the
        Bureau of Indian Affairs

Report No. C-IS-BIA-0004-2010                    January 2010
completed the checklist based on both our observations and interviews with museum personnel.
We also received self-reported checklists from an additional four BIA sites. This report provides
you with specific results for these BIA sites.


      Results of Inspection

        Overall, we found widespread issues with the preservation practices at the BIA sites.
While some sites had only a small number of deficiencies, others had numerous deficiencies in
multiple categories. See Appendix. For
                                                                          Percentage of Checklist
example, none of the sites reviewed            Site
                                                                          Items with Deficiencies
monitored temperature and/or humidity to
                                               Central Office                       43%
determine its impact on the condition of
artwork and/or artifacts maintained by the     Central Region                       39%
sites. Additionally, one site did not perform  Northern California                  36%
more than half of the preservation controls    Alaska Native Claims                 39%
we inspected.                                  Rocky Mountain                       64%
                                                Southern Plains                     25%
        Because the preservation of the
                                                 Western Regional                    11%
collections at many BIA sites has been
neglected, countless artwork, artifacts, and other museum objects are in jeopardy. Identified
deficiencies could jeopardize museum objects and result in irreparable harm, irreversible
damage, or loss of the item. Overall, all seven of the BIA sites (100 percent) had one or more
deficiencies.


        Recommendations

       We recommend that the Director, Bureau of Indian Affairs, ensure that a plan is
developed and implemented to:

       Recommendation 1. Correct and/or mitigate, to the greatest extent possible, all
       identified deficiencies at the seven sites identified in this report.

       Recommendation 2. Inspect all remaining BIA sites that house museum collections and
       correct and/or mitigate, to the greatest extent possible, all identified deficiencies.

        We would appreciate being kept apprised of the actions planned, or taken, on our
recommendations as we will track the status of their implementation. We ask that you inform us
of the planned course of action of the recommendations within 30 days.

       If you have any comments or questions regarding this advisory, please call me at
(303) 236-9243.



                                                2
                                                                                                                                                                      Appendix

                                                                 Observed                                                                 Self-Reported




                                                                    Central Region Office




                                                                                                                  Alaska Native Claims
                                                                                                                  Settlement Act Office
                                                                                            Northern California
                                           Central Office West




                                                                                                                                                                              Western Regional
                                                                                                                                          Rocky Mountain



                                                                                                                                                            Southern Plains
                                                                                                                                          Regional Office



                                                                                                                                                            Regional Office
                                                                                                 Agency




                                                                                                                                                                                   Office
        No Deficiencies Noted

   X    Deficiencies Noted

   %    Percentage of Deficiencies Noted



STORAGE                                    15%                    38%                        8%                   23%                     15%                8%                0%
1. Safe from flooding.
2. Appropriately insulated.                                         X
3. Appropriate space.                                               X
4. Sufficient space.                                                X                                                   X                                       X
5. Adequate storage cabinets.
6. Cabinets not over-stacked.
7. Open shelving safe.
8. Stacked items protected.                                                                                             X
9. Earthquake safe.
10. No overcrowding.                                                X
11. Secure exhibit cases.                  X                        X                            X                                            X
12. Appropriate exhibit cases.                                                                                                                X
13. Properly framed artwork.               X
ENVIRONMENT                                67%                    67%                       67%                   67%                     89%               78%               44%
14. Temperature & humidity
                                           X                        X                            X                      X                     X                 X                 X
monitored.
15. Observations recorded.                 X                        X                            X                      X                     X                 X                 X
16. Observations permanently saved.        X                        X                            X                      X                     X                 X                 X
17. Observations analyzed.                 X                        X                            X                      X                     X                 X                 X
18. Hygrothermographs maintained.                                   X                                                                         X                 X
19. Outside light appropriately
                                                                    X                                                                         X                 X
controlled.
20. Artwork away from vents.
21. Pest control devices used.             X                                                     X                      X                     X
22. Type of pests analyzed.                X                                                     X                      X                     X                 X
SECURITY                                   25%                    38%                       13%                   25%                     75%                0%               13%
23. Appropriate staff have keys.                                    X
24. Keys are controlled.                   X                                                     X                                            X
25. Visitors escorted.                                              X
26. Visitors sign in.                                               X                                                   X                     X                                   X
27. Closing procedures documented.                                                                                                            X
28. Alarm systems maintained.              UTD                                                                                                X
29. Sensitive items stored
                                                                                                                        X                     X
separately.
30. Irreplaceable items guarded.                                                                                                              X
                                                                                3
                                                                                                                                                                               Appendix
                                                                          Observed                                                                 Self-Reported




                                                                             Central Region Office




                                                                                                                           Alaska Native Claims
                                                                                                                           Settlement Act Office
                                                                                                     Northern California
                                                    Central Office West




                                                                                                                                                                                       Western Regional
                                                                                                                                                   Rocky Mountain



                                                                                                                                                                     Southern Plains
                                                                                                                                                   Regional Office



                                                                                                                                                                     Regional Office
                                                                                                          Agency




                                                                                                                                                                                            Office
             No Deficiencies Noted

        X    Deficiencies Noted

        %    Percentage of Deficiencies Noted



   FIRE PROTECTION                                 20%                      0%                        0%                   20%                     60%                0%                0%
   31. Fire detection and suppression.             UTD                                                                                                 X
   32. Fire extinguishers.                                                                                                                             X
   33. Staff trained on fire
                                                                                                                                 X                     X
   extinguishers.
   34. Fire suppression systems clear.
   35. No flammable liquids.
   HOUSEKEEPING                                    75%                     25%                       100%                  50%                     100%              25%                0%
   36. Housekeeping performed.                     UTD                                                    X                                            X
   37. Written rules on housekeeping.              UTD                       X                            X                      X                     X
   38. Housekeepers trained.                       UTD                                                    X                                            X
   39. Smoking & eating prohibited.                                                                       X                      X                     X                 X
   PLANNING                                       100%                     67%                       100%                  100%                    100%              33%                0%
   40. Written plan.                                X                        X                            X                      X                     X
   41. Assessment of property.                      X                                                     X                      X                     X
   42. Plan to evacuate property.                   X                        X                            X                      X                     X                 X
   STAFFING                                       100%                      0%                       50%                    0%                     100%              50%                0%
   43. Staff assigned responsibilities.             X                                                                                                  X
   44. Staff have been trained.                     X                                                     X                                            X                 X
   ADDITIONAL DOCUMENTS
   1. Checklist Report                             UTD                                                    X                                            X                 X
   2. Basic Security Protection Report             UTD                       X                            X                                            X                 X
   3. Fire Protection Plan                         UTD                       X                            X                                            X
   4. Integrated Pest Management Plan              UTD                       X                            X                                            X
   5. Environmental Control Plan                   UTD                       X                            X                                            X                 X
   6. Annual Emergency Management
                                                   UTD                       X                            X                                            X
   Plan
   7. Current Collection Storage Plan              UTD                                                                                                 X                 X
   8. Written Handling Procedures                  UTD                                                    X                                            X

UTD = Unable to determine. No one at the site was able to answer the question.




                                                                                         4
Report Fraud, Waste, Abuse
   And Mismanagement
           Fraud, waste, and abuse in
       government concerns everyone:
       Office of Inspector General staff,
      Departmental employees, and the
      general public. We actively solicit
       allegations of any inefficient and
     wasteful practices, fraud, and abuse
   related to Departmental or Insular area
  programs and operations. You can report
       allegations to us in several ways.




   By Mail:    U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 4428 MIB
               1849 C Street, NW
               Washington, D.C. 20240

   By Phone:   24-Hour Toll Free 800-424-5081
               Washington Metro 703-487-5435

   By Fax:     703-487-5402

   By          www.doioig.gov/hotline
   Internet:
